TN

COCKLE

L egal Brie fs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-247

CITY OF BOISE,
Petitioner,
v.

ROBERT MARTIN, LAWRENCE LEE SMITH,
ROBERT ANDERSON, JANET F. BELL,
PAMELA S. HAWKES, AND BASIL E. HUMPHREY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF BRENTWOOD COMMUNITY COUNCIL IN SUPPORT OF PETITIONER in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 3927 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 20th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . LE Qudaw- ‘.
My Commission Expires Nov 24, 2020 <

Notary Public Affiant

 

38702
